APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(August 8, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order in
the United States District Court,
Southern District of Texas, Houston
Division
(September 14, 2017) . . . . . . . . . App. 25
Appendix C Memorandum Opinion and Order in
the United States District Court,
Southern District of Texas, Houston
Division
(September 14, 2017) . . . . . . . . . App. 40
Appendix D Final Judgment in the United States
District Court, Southern District of Texas
(September 29, 2017) . . . . . . . . . App. 44
Appendix E Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Fifth Circuit
(November 12, 2019) . . . . . . . . . . App. 46
Appendix F 31 U.S.C. § 3729 . . . . . . . . . . . . . App. 48
31 U.S.C. § 3730 . . . . . . . . . . . . . App. 53
Appendix G Early Payment Default Individual
Case Summaries
Fold-Out Exhibit. . . . . . . . . . . . . App. 63

ii
Appendix H Special Jury Verdict Form in the
United States District Court,
Southern District of Texas, Houston
Division
(November 29, 2016) . . . . . . . . . . App. 64
Appendix I Excerpts of Transcript (Payne
Testimony) Before Judge George C.
Hanks, Jr. in the United States
District Court, Southern District of
Texas, Houston Division
(November 3, 2016). . . . . . . . . . . App. 70

App. 1

APPENDIX A
REVISED August 9, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-20720
[Filed August 8, 2019]
__________________________________________
UNITED STATES OF AMERICA,
)
Plaintiff - Appellee
)
)
v.
)
)
JIM C. HODGE; ALLQUEST HOME
)
MORTGAGE CORPORATION, formerly
)
known as Allied Home Mortgage
)
Corporation; AMERICUS MORTGAGE
)
CORPORATION, formerly known as Allied )
Home Mortgage Capital Corporation,
)
Defendants - Appellants
)
_________________________________________ )
Appeal from the United States District Court
for the Southern District of Texas
Before BARKSDALE, SOUTHWICK, and HAYNES,
Circuit Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
After a five-week trial on False Claims Act and
Financial Institutions Reform, Recovery and

App. 2
Enforcement Act claims, the government secured
judgments and penalties that totaled nearly $300
million. On appeal, the defendants challenge the
sufficiency of the evidence, the admissibility of the
government’s expert evidence, and the district court’s
dismissal of a juror shortly before the remaining jurors
reached their verdict. We AFFIRM.
FACTUAL AND PROCEDURAL BACKGROUND
The Federal Housing Agency (“FHA”) mortgage
insurance program insures participating lenders
against any losses on qualifying mortgage loans, which
are primarily loans to first-time homebuyers.
Jim Hodge was the owner and chief executive officer
of defendants Allied Home Mortgage Capital
Corporation1 (“Allied Capital”) and Allied Home
Mortgage Corporation2 (“Allied Corporation”). Both
companies participated in the FHA insurance program
but in different ways.
Allied Capital was a loan correspondent, meaning it
could originate loans but was not permitted to hold
loans. 24 C.F.R. § 202.8(a). Instead, information it
collected was forwarded to Allied Corporation, the
lender or mortgagee responsible for underwriting and
funding the loan. Id. § 202.7(a). As a loan
correspondent, Allied Capital was required to obtain
Department of Housing and Urban Development

1

Now known as Americus Mortgage Corporation.

2

Now known as Allquest Home Mortgage Corporation.

App. 3
(“HUD”) approval for each branch office where it
originated loans.
Participating lenders must submit a loan file to
HUD to be endorsed for FHA insurance. Loan files
submitted to HUD for endorsement are accompanied by
Form 92900-A. That form requires the unique
registration number for the originating branch as well
as certification that the loan is eligible for insurance
and compliant with HUD underwriting guidelines.
Allied Corporation was a participant in HUD’s “direct
endorsement lender” program, which authorized it to
determine eligibility on HUD’s behalf by certifying that
a given loan met FHA guidelines.
In 2011, an Allied Capital branch manager filed a
qui tam action under the False Claims Act (“FCA”)
alleging that the defendants had defrauded the
government by fraudulently obtaining FHA insurance
for loans that later defaulted. See 31 U.S.C. §§ 3729-33.
The government exercised its right to intervene in the
lawsuit. See id. § 3730(b)(2).
Over the course of a five-week trial, the government
advanced multiple theories of liability based on alleged
violations of the FCA and the Financial Institutions
Reform, Recovery and Enforcement Act (“FIRREA”).
The jury did not immediately return a verdict,
which led to a sequence of events that culminated in
the district court excusing one of the jurors. The day
after the juror was excused, the jury returned a verdict
finding Allied Corporation liable under the FCA for
misrepresentations about its compliance with FHA
underwriting guidelines. See 31 U.S.C. § 3729(a)(1)(A),

App. 4
(B). The jury awarded $85.6 million in damages. It
likewise found Hodge and Allied Capital liable under
the FCA for misrepresenting that loans actually
originated by unregistered “shadow” branches were
loans instead originated by registered branches. See id.
§ 3729(a)(1)(B). For that violation of the FCA, the jury
awarded $7.4 million in damages. Finally, the jury also
found all three defendants were liable under FIRREA
for false certifications about their compliance with
HUD’s quality control requirements. See 12 U.S.C.
§ 1833a(a), (c)(1).
The district court denied the defendants’ motions for
judgment as a matter of law and for a new trial. It also
granted the government’s post-trial motion for treble
damages and civil penalties. It awarded treble damages
and penalties under the FCA against Allied Capital
and Hodge totaling $23.1 million, against Allied
Corporation totaling $268.8 million, and FIRREA
penalties of $2.2 million against each defendant.
DISCUSSION
We start with analysis of the sufficiency of the
evidence, then discuss the admission of expert
testimony, and finally address the dismissal of a juror.
I.

Sufficiency of the Evidence

“A motion for judgment as a matter of law . . . in an
action tried by jury is a challenge to the legal
sufficiency of the evidence supporting the jury’s
verdict.” Flowers v. S. Reg’l Physician Servs. Inc., 247
F.3d 229, 235 (5th Cir. 2001) (citations omitted); see
also FED. R. CIV. P. 50. Our review of the ruling on such
a motion is de novo, using the same analysis as the

App. 5
district court that the motion should be granted if
“there is no legally sufficient evidentiary basis for a
reasonable jury to have found for that party with
respect to that issue.” Flowers, 247 F.3d at 235 (citation
omitted). Granting the motion requires that the “facts
and inferences point ‘so strongly and overwhelmingly
in the movant’s favor that reasonable jurors could not
reach a contrary conclusion.’” Id. (quoting Omnitech
Int’l, Inc. v. Clorox Co., 11 F.3d 1316, 1322 (5th Cir.
1994)). “The district court’s damages and penalty
determinations are reviewed for an abuse of
discretion.” SEC v. Kahlon, 873 F.3d 500, 504 (5th Cir.
2017).
“In determining whether liability attaches under
the FCA, this court asks ‘(1) whether there was a false
statement or fraudulent course of conduct; (2) made . . .
with . . . scienter; (3) that was material; and (4) that
caused the government to pay out money.’” United
States ex rel. Harman v. Trinity Indus. Inc., 872 F.3d
645, 653-54 (5th Cir. 2017) (quoting Gonzalez v.
Fresenius Med. Care N. Am., 689 F.3d 470, 475 (5th
Cir. 2012)).
A. False Claims Act — Unregistered Branches
The jury found Hodge and Allied Capital liable
under the False Claims Act and awarded $7.4 million
in damages for concealing that unregistered branches
had originated many of the loans being endorsed for
FHA insurance. Hodge and Allied Capital argue there
was insufficient evidence of scienter, materiality, and
causation to support the jury’s verdict.

App. 6
i.

Scienter

To prove scienter, the government must show “the
[d]efendants had (1) actual knowledge of falsity,
(2) acted with deliberate ignorance of the truth or
falsity of the information provided, or (3) acted with
reckless disregard of the truth or falsity of the
information provided.” United States ex rel. Longhi v.
United States, 575 F.3d 458, 468 (5th Cir. 2009).
The defendants argue there was no evidence that
Hodge “or anyone at Allied Capital ever had any form
of knowledge that these entries concerning the mere
identity of a branch location were ‘material to a false or
fraudulent claim.’” The government, though, identifies
evidence that Allied Capital, with Hodge’s approval,
hid the involvement of unregistered branches from
HUD and that Hodge lied about them when the
violations were discovered in a state audit. For
example, Allied compliance chief Jeanne Stell
Hammond testified that Hodge decided to continue
originating loans from unregistered branches even
after HUD notified them it was not permitted, and that
Hodge did not want to register branches because of “the
scrutiny by HUD.”
The jury could have relied on such evidence to find
Hodge and Allied Capital acted with scienter.
ii.

Materiality

The defendants argue there is insufficient evidence
that the originating branch information was material.
“[T]he term ‘material’ means having a natural tendency
to influence, or be capable of influencing, the payment
or receipt of money or property,” which requires us to

App. 7
evaluate “the effect on the likely or actual behavior of
the recipient of the alleged misrepresentation.” Trinity
Indus. Inc., 872 F.3d at 661 (emphasis omitted)
(quoting Universal Health Servs., Inc. v. United States
ex rel. Escobar, 136 S. Ct. 1989, 2002 (2016)).
The gist of this inquiry is whether false
representations about the originating branch for a loan
induced HUD to issue insurance. The defendants rely
on the fact that the form did not list the branch number
as a matter certified to induce insurance; that
underwriting certifications were more directly relevant;
that HUD later eliminated the registration
requirement; and that HUD knew about the
unregistered branches when it issued insurance.
Though the branch number was not listed as a
matter certified to induce the insurance, there was
testimony that the agency would not have insured
loans originated by unregistered branches. The
rationale for the rule was the agency’s experience of
higher default rates on loans from unregistered
originators.
The information would not likely have been
material if it were true that HUD knew loans were
originated by unregistered branches and insured them
anyway because “continued payment by the federal
government after it learns of the alleged fraud
substantially increases the burden on the relator in
establishing materiality.” Trinity Indus. Inc., 872 F.3d
at 663. The evidence at trial, though, showed the
opposite. The government’s “actions following its
discovery of [the] fraud support, rather than undercut,

App. 8
a finding of materiality.” United States v. Luce, 873
F.3d 999, 1008 (7th Cir. 2017).
When HUD discovered a handful of loans originated
from unregistered branches, it demanded the
defendants agree to indemnify HUD in the event of
claims “due to the seriousness of the violation.” When
the full extent of the conduct became apparent, HUD
promptly acted to suspend and bar Hodge and Allied
Capital from the FHA program entirely. “There was no
prolonged period of acquiescence.” Id. The defendants’
assertion that the evidence showed HUD advised them
to use registered branch numbers for loans originated
by unregistered branches is not supported by the
record.
iii.

Causation

The defendants also challenge the sufficiency of the
evidence to establish causation. The defendants argue
that their incorrectly identifying the originating branch
for a specific loan was not shown to have caused a
specific default by a borrower. The defendants rely on
caselaw that in “a federal housing case, the United
States must show that the false statements in the
application were the cause of subsequent defaults.”
United States v. Miller, 645 F.2d 473, 476 (5th Cir.
Unit A May 1981). In Miller, we acknowledged that not
all false statements have a causal connection to a later
default, but “false statements regarding the ability of
purchasers to afford housing could very well be the
major factor for subsequent defaults.” Id.
The defendants insist that a restrictive proximate
cause inquiry is needed that connects specific false

App. 9
statements to individual defaults. There arguably is
support for that proposal in a Miller footnote, where
the court described favorably the facts of another
precedent in which “the false representations . . .
arguably had some relevance to the credit worthiness
of the borrower as well as the value of security, and
thus causal connection with the default which later
occurred.” Id. at 476 n.3 (quoting United States v.
Hibbs, 568 F.2d 347, 352 (3d Cir. 1977)). Yet the facts
of a specific case are not necessarily a limit on the legal
principles.
We agree proximate cause is required. That is a
common-law concept focused on the scope of risk and
foreseeability. See Paroline v. United States, 572 U.S.
434, 445 (2014). The Supreme Court has labeled
proximate cause as “a flexible concept.” Id. at 444
(quoting Bridge v. Phoenix Bond & Indem. Co., 553
U.S. 639, 654 (2008)). It “is often explicated in terms of
foreseeability or the scope of the risk created by the
predicate conduct” and “thus serves, inter alia, to
preclude liability in situations where the causal link
between conduct and result is so attenuated that the
consequence is more aptly described as mere fortuity.”
Id. at 445.
We expect that connecting false statements and
defaults with specific loans is not feasible in a case that
relies on sampling and extrapolation, as does this one.
The government fairly reasons that HUD linked
unregistered branches to higher risks of default, and
that the expert evidence showed those loans, as
predicted, defaulted at higher rates. It then follows
that the false statements distorted the risk perceived

App. 10
by HUD, which caused it to insure more loans and
incur more losses than it would have otherwise.
This amounts to more than enough evidence for a
jury to find that the false statements were a proximate
cause of the losses. Viewing the risks and effects of the
false statements in the aggregate reveals the
relationship between the misconduct and the loss. Even
if the defendants did not know which specific loans
would eventually default, it was foreseeable that a
higher percentage of them would result in claims.
B. False Claims Act — Reckless Underwriting
The defendants also challenge the sufficiency of the
evidence of scienter, materiality, and causation for the
other FCA claims against Allied Corporation premised
on a theory of reckless underwriting.
i.

Scienter

The jury could have found scienter based on, among
other things, testimony that Allied Corporation’s
employees were aware of HUD underwriting
guidelines, that the government’s expert identified
significant amounts of obvious and serious defects; and
that management imposed impossible quotas on its
underwriters.
Allied Corporation’s brief takes issue only with the
expert evidence. For the reasons described later in our
review of challenges to the experts, the defendants
have failed to show that this evidence was unreliable.
See Part II.B, infra. The jury was free to credit that
testimony along with the other evidence not addressed

App. 11
by the defendants. See United States v. 14.38 Acres of
Land, 80 F.3d 1074, 1077 (5th Cir. 1996).
ii.

Materiality

The defendants’ brief devoted two sentences to
challenging the sufficiency of the evidence for
materiality. The argument is conclusory, which means
it is inadequately briefed and we therefore decline to
discuss it further. United States v. McMillan, 600 F.3d
434, 457 n.75 (5th Cir. 2010).
iii.

Causation

The defendants contend that the government put on
no evidence that “reckless underwriting” caused
defaults. The government’s expert, though, testified
explicitly about deficiently underwritten loans that
resulted in claims. At the very least, “false statements
regarding the ability of purchasers to afford housing
could very well be the major factor for subsequent
defaults.” Miller, 645 F.2d at 476. The jury could have
found that they were such a factor here.
C. FIRREA Penalties
Hodge challenges the jury’s finding of FIRREA
liability for false certifications and quality control
documents. 12 U.S.C. § 1833a(a), (c) (incorporating 18
U.S.C. §§ 1006, 1014). Hodge argues that the plain
language of the statute requires him to have personally
made false entries, not merely to have caused them to
be made.
Hodge waived this issue when he requested a jury
instruction providing for FIRREA liability if he “made,

App. 12
or caused to be made” false certifications or quality
control documents. “A party cannot complain on appeal
of errors which he himself induced the district court to
commit.” McCaig v. Wells Fargo Bank (Texas), N.A.,
788 F.3d 463, 476 (5th Cir. 2015) (quoting United
States v. Lopez–Escobar, 920 F.2d 1241, 1246 (5th Cir.
1991)). Even if he had not waived the point, previous
panels already held it is only necessary to have caused
false entries to be made. See United States v.
Beuttenmuller, 29 F.3d 973, 982 (5th Cir. 1994),
overruled in part on other grounds by United States v.
Gaudin, 515 U.S. 506 (1995). We are required to reach
the same result.
II.

Experts

Three experts testified for the government at trial.
The district court conducted a pre-trial hearing to
examine the admissibility of the expert testimony
pursuant to Daubert v. Merrell Dow Pharm., Inc., 509
U.S. 579, 594-95 (1993). The defendants argue that
reversal is necessary because the district court failed to
develop an adequate record when it denied their
Daubert motions without making findings or stating its
reasoning. The defendants also argue that, regardless,
admitting the testimony was an abuse of discretion
because the experts’ methodologies were insufficiently
reliable.
A. District Court Record
The defendants contend that the district court
abused its discretion because it did not make findings
or articulate its reasoning when it summarily denied
their Daubert motions. “At a minimum, a district court

App. 13
must create a record of its Daubert inquiry and
‘articulate its basis for admitting expert testimony.’”3
Carlson v. Bioremedi Therapeutic Sys., Inc., 822 F.3d
194, 201 (5th Cir. 2016) (quoting Rodriguez, 242 F.3d
at 581).
How and when the district court expresses its
reasoning can vary. The record here is sufficiently
developed to analyze admissibility. This is not an
instance where “the record reflects that no Daubert
inquiry took place.” Id. The district court was closely
engaged with the development of the sampling
methodology relied upon by the government’s experts;
it heard arguments on the defendants’ various Daubert
motions; and it at least belatedly elaborated on its
reasons for admitting the expert testimony when it
later denied the defendants’ motion for a new trial.
Indeed, this is a particularly inappropriate case to
remand to obtain the district court’s reasoning as it has
already been stated in its later order.
The district court’s reasoning is clear, and we now
examine the ruling.
B. Admission of Expert Testimony
We “review the admission of expert testimony for an
abuse of discretion,” which means that it “will be
upheld unless it was ‘manifestly erroneous.’” Id. at 199

3

To invoke this requirement, though, “an expert’s testimony, or its
‘factual basis, data, principles, methods, or their application,’ must
be ‘called sufficiently into question.’” Rodriguez v. Riddell Sports,
Inc., 242 F.3d 567, 581 (5th Cir. 2001) (quoting Kumho Tire Co. v.
Carmichael, 526 U.S. 137, 149 (1999)).

App. 14
(quoting United States v. Valencia, 600 F.3d 389, 423
(5th Cir. 2010)). Even then, “we still may affirm unless
the ruling ‘affected the substantial rights of the
complaining party.’” Id. (quoting Nunez v. Allstate Ins.
Co., 604 F.3d 840, 844 (5th Cir. 2010)).
“[E]xpert testimony is admissible only if it is both
relevant and reliable.” Pipitone v. Biomatrix, Inc., 288
F.3d 239, 244 (5th Cir. 2002). Factors that might
inform whether testimony is reliable “include whether
the expert’s theory or technique: (1) can be or has been
tested; (2) has been subjected to peer review and
publication; (3) has a known or potential rate of error
or standards controlling its operation; and (4) is
generally accepted in the relevant scientific
community.” Id.
Even when a court “rules that an expert’s testimony
is reliable, this does not necessarily mean that
contradictory expert testimony is unreliable.” FED. R.
EVID. 702 advisory committee’s note to 2000
amendment. Our “focus, of course, must be solely on
principles and methodology, not on the conclusions that
they generate.” Daubert, 509 U.S. at 595. This means
“[t]he Daubert [inquiry] should not supplant trial on
the merits.” Mathis v. Exxon Corp., 302 F.3d 448, 461
(5th Cir. 2002). “Vigorous cross-examination,
presentation of contrary evidence, and careful
instruction on the burden of proof are the traditional
and appropriate means of attacking shaky but
admissible evidence.” Daubert, 509 U.S. at 596.
The defendants filed four separate Daubert motions
in the district court. On appeal the defendants
challenge the reliability of Dr. Katherine Ensor’s

App. 15
sampling methodology, Dr. Richard Payne’s reunderwriting methodology, and apparently the
admission of any expert testimony about damages.
i.

Sampling Methodology

Dr. Ensor testified for the government as a
statistical sampling expert. She described how she
generated the stratified random samples of loan files
that were then utilized by the other experts in their
own analyses. The defendants’ Daubert motions
disputed the sampling on multiple grounds. At the
Daubert hearing, the government argued that the
defendants waived these challenges when they agreed
to sampling during discovery.
The relevant chronology as to this issue is that in a
November 2014 filing, the defendants objected to the
government’s request for all the loan files and sought
to limit discovery to a “random, statistically relevant
sample size.” In December 2014, the parties told the
district court they hoped to agree on the sampling
methodology to avoid unnecessary Daubert challenges.
By a January 2015 hearing where the district court
heard from both sides’ experts, the parties had agreed
on the mechanics of the sampling methodology but
continued to disagree about the number of loans that
would be included in the sample. At this point, the
government had proposed a sample consisting of 385
loans that resulted in FHA insurance claims (the
“Claim Loans”) and 106 loans that did not result in
claims to HUD (the “Non-Claim Loans”). The
defendants countered by proposing “[u]niform sample
sizes of 200 loan files” for each category because they

App. 16
“would be more quickly analyzed and more easily
compared.” The defendants similarly argued that
different amounts of Claim and Non-Claim Loans
would make comparisons between them “very complex,
and unnecessarily burdensome.”
In other words, the defendants’ objections were only
to the number of loan files in each category and the
burden that imposed, not to relevance or reliability.
The district court then ordered the defendants to
produce loan files “pursuant to the sampling
methodology as set forth by the Government.”
On appeal, the defendants complain that Dr. Ensor
“failed to control for obvious causes of loan defaults” or
for the date of default, but these issues are
unreviewable because they were waived. See United
States v. Rodriguez, 602 F.3d 346, 350-51 (5th Cir.
2010). “Waiver is the ‘intentional relinquishment or
abandonment of a known right.’” United States v.
Arviso-Mata, 442 F.3d 382, 384 (5th Cir. 2006) (quoting
United States v. Olano, 507 U.S. 725, 733 (1993)). None
of this came up during the extensive negotiations over
the sampling methodology that would be used. The
defendants’ own expert informed the district court that
there was no such disagreement:
THE COURT: So the bottom line — so I
guess the bottom line we’re just talking about —
you’re not disagreeing with the methodology,
you’re just really disagreeing with the numbers
that are used to come up with the number of
files to be sampled?
DR. LASSITER: That is correct, Your Honor.

App. 17
This testimony identified the argument being made
now but it was not pursued. Any challenge to the
sampling other than the number of files selected was
waived.
The defendants do raise the preserved challenge to
the number of Claim and Non-Claim Loans sampled,
but they never explain in their brief how the amounts
rendered any of the expert testimony unreliable.4 “As
a general rule, questions relating to the bases and
sources of an expert’s opinion affect the weight to be
assigned that opinion rather than its admissibility and
should be left for the jury’s consideration.” 14.38 Acres
of Land, 80 F.3d at 1077 (quoting Viterbo v. Dow Chem.
Co., 826 F.2d 420, 422 (5th Cir. 1987)).
ii.

Re-Underwriting Methodology

The government called Dr. Richard Payne to testify
about the FCA claims premised on Allied Corporation
“recklessly underwriting” loans that were ineligible for
FHA insurance. Dr. Payne undertook a “reunderwriting review” of 460 loans contained in the
sample generated by Dr. Ensor. Dr. Payne ultimately
concluded that 240 loans were ineligible for FHA
insurance because they were deficient under the
applicable HUD guidelines. The defendants claim that
this testimony was unreliable because Dr. Payne
“consciously refused to apply the HUD [underwriting]

4

It is worth noting that the defendants offered no affirmative
evidence in support of any of the Daubert motions, such as their
own expert materials.

App. 18
standard” and “confect[ed] his own idiosyncratic
eligibility standards.”5
There is nothing in the record to support the
defendants’ contention that Dr. Payne did not apply the
HUD underwriting standards. To the contrary, Dr.
Payne’s report explained that he had “instructed the
re-underwriting team to review each Mortgage Loan
file and compare the contents to the credit
requirements from the HUD Handbooks in effect at the
time, including, but not limited to, [sections] 4155.1,
4000.4 and 4150.2.” At trial, Dr. Payne explained that
the FHA supplements the HUD Handbooks with
“mortgagee letters, which usually get incorporated in
the next version of the applicable underwriting
guideline,” and that any automated underwriting is
covered by an FHA guide called the TOTAL Mortgage
Scorecard.
Dr. Payne testified that these documents
collectively represent HUD’s underwriting guidelines,
and that he applied them to determine whether the
loans in the sample were eligible for FHA insurance.
The government also introduced into evidence a
spreadsheet listing the 240 loans Dr. Payne concluded
had been ineligible for FHA insurance based on his

5

In their reply brief the defendants assert for the first time that
Dr. Payne’s testimony about eligibility was “not even a relevant
inquiry when it is recklessness and proximate cause that must be
proved.” “Needless to say, we do not consider issues raised for the
first time in a reply brief” and “the failure to provide any legal or
factual analysis of an issue results in waiver of that issue.”
Cavallini v. State Farm Mut. Auto Ins. Co., 44 F.3d 256, 260 n.9
(5th Cir. 1995).

App. 19
finding “a deficiency relative to the underwriting
guidelines.” For each ineligible loan, the spreadsheet
included “the Allied Home Mortgage loan number, the
case number, a classification of the [deficiency] finding,
a narrative describing the [deficiency] finding, and the
applicable guidelines that were used.” Importantly, the
spreadsheet identified on a loan-by-loan basis the
specific HUD guidelines on which Dr. Payne based his
deficiency findings and eligibility conclusions.
The defendants do not question any specific
component of Dr. Payne’s methodology or any
ineligibility finding for a specific loan. The defendants
instead refer to a regulation that establishes the
underwriting guidelines published by HUD as the
minimum standard for due diligence. See 24 C.F.R.
§ 203.5(c). That regulation is consistent with Dr.
Payne’s methodology and only provides additional
support for its reliability.
iii.

Damages Methodology

In two sentences the defendants contend that “the
challenged expert testimony on FCA damages” was
irrelevant and unreliable because it “failed to use, or
even consider, the correct causation standard.” They
failed to identify specific testimony or even a specific
expert they are challenging. “We decline to review this
argument as conclusory and inadequately briefed.”
McMillan, 600 F.3d at 457 n.75. 6
6

We do note, however, that the government’s damages expert
Gordon Klein avoided any double-counting issues, and that the
amounts awarded by the jury were clearly derived from his
testimony.

App. 20
III.

Juror No. 7
A. The Deliberations and Discharge

On the second day of deliberations, the jury sent a
note to the district court stating that one juror
“claim[ed] to have made up his mind,” had stated that
“when the Government has it in for you, they will find
a way to get you,” and was wearing ear plugs to avoid
hearing the “remaining jurors try to work through the
case.” The district court instructed the jury to continue
deliberating and not to disclose the contents of
deliberations.
On the third day, the jury informed the court it was
deadlocked. The defendants requested a mistrial, but
the district court gave a standard Allen charge instead.
See FIFTH CIRCUIT PATTERN JURY INSTRUCTIONS (CIVIL
CASES) § 2.18. That afternoon, the jury sent a note that
they had a “substantial majority” of eight jurors willing
to deliberate, but still had “one juror who refuse[d] to
talk to the group” despite the Allen charge. The note
said the juror had “shown through statements, bias and
sympathy . . . direct disregard of the Court’s Charge.”
A second note that afternoon indicated that the juror
was “starting to make threats to peoples’ (fellow
jurors’) physical safety,” and that jurors were “feeling
insecure and threatened.”
At this point the district court resolved to question
the foreperson under oath. The foreperson explained:
One juror is – says that that person is – is –
has made their mind up. They’re not changing.
And when other jurors try to engage and ask
them – ask that person, Well, what is it – why

App. 21
do you think this way? That juror says, you
know, You get a vote. I get a vote. You’re not
going to change my mind, and – and – and that
person clams up.
And then other jurors start to try to ask,
Well, what – what – you know, what is it you
think? How is it you think? And that person
says, you know, Don’t – don’t push me. I believe
that person said, “Don’t push me.” But I do
remember that person saying “Hush. Hush or
else.” And I asked him – I said, “Or else what?
Are you going to do physical violence?” And the
ladies in the room took that as a threat of
physical violence, that if we did not back off, this
person would get violent. And they consider this
person to be – one of the jurors said this person
is unstable, and it – it’s not a good situation.
At this point, the district court determined that
further investigation was warranted because there was
credible evidence a juror was not complying with its
Allen instruction on the duty-to-deliberate. It then
proceeded to question each juror individually and
under oath.
Most of the jurors testified that they were not
personally threatened but felt that another juror had
been specifically threatened. One juror answered that
she felt threatened or uncomfortable after someone
started “downright shouting that they didn’t have to
[collaborate], that they were going to sit there as long
as it took, that nothing was going to change their
mind,” and would “become irate and yell . . . to the
point that it made [her] shaky.”

App. 22
When the district court posed the standard
questions to Juror No. 7, there were clear echoes of the
alleged refusal to deliberate:
THE COURT: Are you willing to consider
whether – if a substantial majority of fellow
jurors disagrees with you, whether or not your
position on the evidence is reasonable? That is,
are you willing –
JUROR: Yes. My – my decision is reasonable,
yes.
THE COURT: Okay. But are you willing to
consider if – if – are you willing to consider
whether – if a substantial majority of fellow
jurors disagrees with you, whether or not your
position is in fact reasonable?
JUROR: I say yes, my decision is reasonable.
Juror No. 7 denied threatening anybody but
admitted to wearing earplugs. After the jurors had
each been questioned, the defendants renewed their
motion for a mistrial. The district court denied the
motion because it disagreed that the issue was “about
one lone holdout” or “a disagreement over the evidence”
but instead was about the juror’s “failure to follow the
Court’s instructions.” It found there was credible
evidence the juror had “not participated in the
deliberations” and that “he threatened at least one
fellow juror who attempted to follow the court’s
instructions to deliberate.” It pointed out that fellow
jurors “used words like ‘scary,’ ‘felt threatened,’
‘unstable’” to describe the individual and concluded it
did not “believe [he was] telling the truth with respect

App. 23
to his deliberations and his compliance with the Court’s
order.”
B. Analysis
The defendants argue that the district court erred
by denying their request for a mistrial and discharging
the juror. A district court “may excuse a juror for good
cause.” FED. R. CIV. P. 47(C). “We review a district
court’s response to juror misconduct for abuse of
discretion.” United States v. Ebron, 683 F.3d 105, 125
(5th Cir. 2012).
Based on “the clear and credible nature of the
foreperson’s allegations, the district court had a
sufficient basis for initiating an investigation to
uncover whether a juror was in fact refusing to follow
instructions.” Id. at 126. The district court also did not
abuse its discretion when it removed Juror No. 7
following that investigation.
We have previously declined to apply the rule used
by some circuits that prohibits dismissing a juror
unless there is “no possibility” that the failure to
deliberate arises from their view of the evidence. Id. at
128. We observed that when the dismissal is due to a
failure to be candid or a refusal to follow instructions,
those are grounds that “do not implicate the
deliberative process.” Id.
Here, the district court found that Juror No. 7 had
failed to follow instructions, exhibited a lack of candor
during questioning, and had engaged in threatening
behavior towards other jurors. Though defendants
argue that this juror was removed for reasons that
involve the deliberative process, there were sufficient

App. 24
independent reasons for his removal, namely, his lack
of candor and his threatening behavior. No new rule
about “no possibility” needs to be adopted or rejected in
this case.
AFFIRMED.

App. 25

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:12-CV-2676
[Filed September 14, 2017]
_________________________________
UNITED STATES OF AMERICA, )
)
VS.
)
)
AMERICUS MORTGAGE
)
CORPORATION, et al.,
)
Defendants.
)
________________________________ )
MEMORANDUM OPINION AND ORDER
Before the Court are the Allied Defendants’1 Motion
for Judgment as a Matter of Law (Dkt. 390); and
[Renewed] Motion for Judgment as a Matter of Law
(Dkt. 508); as well as associated memoranda,
appendices, and responsive pleadings.

1

The “Allied Defendants” (or “Allied”) include Americus Mortgage
Corporation (formerly known as Allied Home Mortgage Capital
Corporation) (“Allied Capital”), Allquest Home Mortgage
Corporation (formerly known as Allied Home Mortgage
Corporation) (“Allied Corporation”), and Jim C. Hodge (“Hodge”).

App. 26
Allied’s original motion for judgment as a matter of
law has been superseded by its post-trial renewed
motion. Allied’s original motion (Dkt. 350) is therefore
DENIED as moot. Based on the motions, response,
reply, and various supplemental briefings; the
applicable law; and the arguments of counsel, the
Allied Defendant’s renewed motion for judgment as a
matter of law (Dkt. 508) is DENIED. The reasons for
the ruling are explained below.
ANALYSIS
A motion for judgment as a matter of law challenges
“the legal sufficiency of the evidence supporting a jury’s
verdict.” Ford v. Cimarron Ins. Co., 230 F.3d 828, 830
(5th Cir. 2000) (quoting Jones v. Kerrville State Hosp.,
142 F.3d 263, 265 (5th Cir. 1998)). A movant may file
a renewed motion for judgment (“RJMOL”) as a matter
of law if its original motion was not ruled upon during
a jury trial. FED. R. CIV. P. § 50(b). “The motion must
specify the judgment sought and the law and facts that
entitle the movant to the judgment.” FED. R. CIV. P.
§ 50(a)(2).
A court should only grant a JMOL if “a reasonable
jury would not have a legally sufficient evidentiary
basis to find for the party” on the raised issue. FED. R.
CIV. P. § 50(a)(1). “It goes without saying that the
evidence must be viewed in the light most favorable to
the nonmovant.” Montano v. Orange County, Texas, 842
F.3d 865, 873-74 (5th Cir. 2016). It is not within the
province of the trial court to weigh the evidence or the
credibility of the witnesses. Id. at 874. These matters
are reserved solely for the jury. Id. On the other hand,
a jury’s factual findings must be supported by

App. 27
“substantial evidence.” American Home Assurance Co.
v. United Space All., LLC, 378 F.3d 482, 487 (5th Cir.
2004). A trial court should grant judgment “only if the
evidence points so strongly and so overwhelmingly in
favor of the []moving party that no reasonable juror
could return a contrary verdict.” Porter v. Epps, 659
F.3d 440, 445 (5th Cir. 2011) (internal quotation marks
and citation omitted).
Allied argues that the United States failed to:
1) establish the required elements of an FCA claim;
2) prove that Allied proximately caused the defaults;
and 3) failed to prove its FIRREA claims. As the
moving party, Allied faces a rigorous task m
establishing that the jury’s verdict should be
overturned.
I. Whether the United States Established
Essential Elements of an FCA Claim
Under the FCA,
[A]ny person who (A) knowingly presents, or
causes to be presented, a false or fraudulent
claim for payment or approval; [or]
(B) knowingly makes, uses, or causes to be made
or used, a false record or statement material to
a false or fraudulent claim . . . (G) is liable to the
United States Government for a civil penalty of
not less than [$5,500] and not more than
[$11,000]2, plus 3 times the amount of damages

2

This amount has been adjusted for inflation pursuant to the
Federal Civil Penalties Inflation Adjustment Act of 1990. PL 101410 (S 535). Oct. 5, 1990, 104 Stat 890; 28 C.F.R. § 85.3(a)(9).

App. 28
which the Government sustains because of the
act of that person.
31 U.S.C. § 3729(a). Under Fifth Circuit precedent, the
United States was thus required to prove the following
elements: 1) a false statement or false conduct; 2) made
with the requisite scienter; 3) that was material; and
4) that caused the loss to the government. United
States ex rel. Longhi v. United States, 575 F.3d 458, 467
(5th Cir. 2009) (quoting United States ex rel. Wilson v.
Kellogg Brown & Root, Inc., 525 F.3d 370, 376 (4th Cir.
2008)). Allied does not dispute that false statements
were made. Rather, it argues that the United States
failed to introduce evidence of scienter (here,
“recklessness”) or materiality.
A. Recklessness
The United States introduced evidence that Allied
was aware of HUD regulations prohibiting
unregistered branches from originating loans, Dkt. 457,
p. 112; that Allied continued originating loans from
unregistered branches after learning of the HUD rule,
id. at 113-14; that Allied nevertheless certified on each
loan that it complied with all HUD requirements,
Dkt. 516, p. 358; that some unregistered branches
provided the FHA identification numbers of its
registered branches to skirt the HUD prohibition, Dkt.
458, pp. 109-111; and that Allied forged its branch
managers’ signatures, Dkt. 472, pp. 25, 65. Here, the
jury received substantial evidence that warranted its
finding that Allied’s false statements were the result of
its reckless disregard for the truth. Based on this same
evidence, Allied’s related argument that the United

App. 29
States failed to connect the false statements with the
required scienter is also without merit.
B. Materiality
A recent decision by the Supreme Court of the
United States clarified the FCA’s materiality
requirement. The FCA provides the following definition
of materiality: “[T]he term ‘material’ means having a
natural tendency to influence, or be capable of
influencing, the payment or receipt of money or
property.” 31 U.S.C. § 3729(b)(4). Justice Thomas’s
unanimous opinion in Escobar recently clarified “how
the [FCA’s] rigorous materiality requirement should be
enforced.” Universal Health Servs., Inc. v. United
States ex rel. Escobar, — U.S.—, 136 S.Ct. 1989, 1996,
195 L.Ed.2d 348 (2016).
Under Escobar, “evidence that the defendant knows
that the Government consistently refuses to pay claims
in the mine run of cases based on noncompliance with
the particular statutory, regulatory, or contractual
requirement” constitutes proof of materiality. Id. at
2003. Conversely, Escobar notes two situations
creating “very strong evidence that those requirements
are not material”: (1) “if the Government pays a
particular claim in full despite its actual knowledge
that certain requirements were violated”; and (2) “if the
Government regularly pays a particular type of claim
in full despite actual knowledge that certain
requirements were violated, and has signaled no
change in position ....” Id. at 2003-04.
The United States produced evidence showing the
importance that HUD officials placed upon Allied’s

App. 30
false certifications in deciding whether to pay. Dkts.
401, 458, 469. For example, the government introduced
a HUD addendum to the Uniform Residential Loan
Application (“92900-A”). Plaintiff’s Ex. 196. Through
the testimony of fourteen-year HUD employee Scott
Bice, the Government examined the 92900-A,
discussing the importance of the various required
entries. Dkt. 469. Under Blocks 13 and 15, the
originating branch was required to enter its HUDapproved lender ID and address. Id. According to Bice,
this information is necessary for HUD to track, inter
alia, the branch office’s claim-to-default ratio. Id. HUD
does not allow non-registered branches to originate
loans for insurance. Id. HUD will not approve an
application without this information. Id. Under Lender
Certification, Part B, the lender was required to certify
that “[t]he information contained in [this Application]
was obtained directly from the borrower by an
employee of the undersigned lender or its duly
authorized agent and is true to the best of the lender’s
knowledge and belief.” Id.
The trial transcripts are replete with detailed
analyses of various HUD-requirements, the importance
of those requirements, and why these requirements
were necessary for HUD to make an informed decision.
See, e.g., Dkt. 469, pp. 115-16, 122-23, 131-35, 181. The
Court finds that the United States presented sufficient
evidence of materiality.
II. Whether the United States Proved
Proximate Causation
Allied argues that the United States failed to prove
that Allied’ s malfeasance proximately caused any loss.

App. 31
According to Allied: 1) there was no evidence showing
that the defaults occurred because of the FCA
violations; 2) there was no basis for the United States’
determination of damages through extrapolation; 3) the
margin of error for the Allied eligibility rates for its
claim and non-claim loans are statistically identical;
and 4) the United States failed to control for known
variables in its statistical analysis.
A. Proximate Causation
Under Fifth Circuit law, the United States must
show that a defendant’s false statement or fraudulent
course of conduct “caused the government to pay out
money or to forfeit money due (i.e., that involved a
claim).” Longhi, 575 F.3d, at 467 (citation omitted); see
also United States v. Miller, 645 F.2d 473, 476 (5th Cir.
1981) (“The language of the [FCA] clearly requires that
before the United States may recover ... damages, it
must demonstrate the element of causation between
the false statements and the loss.”). In a federal
housing case, the United States must show that the
false statements in the application caused the
subsequent default. Miller, 645 F.2d at 475.
However, “the Fifth Circuit has not delineated a
specific causation standard applicable to FCA claims.”
United States v. Abbott Labs, No. 3:06-CV-1769-M,
2016 WL 80000, at *6 (N.D. Tex. Jan. 7, 2016). Here,
the Court and the parties agreed that the United
States must demonstrate that Allied proximately
caused the loss incurred. Proximate causation carries
a more stringent standard of proof than does actual
(i.e., “but for”) causation. However, it is not so stringent
as to require elimination of all alternative possible

App. 32
causes. See Paroline v. United States, — U.S. —, 134
S.Ct. 1710, 1719-20, 188 L. Ed. 2d 714 (2014) (“Every
event has many causes, however ... and only some of
them are proximate, as the law uses that term. So to
say that one event was a proximate cause of another
means that it was not just any cause, but one with a
sufficient connection to the result.”); United States v.
Spicer, 57 F.3d 1152, 1159 (D.C. Cir. 1995) (“It is
undoubtedly true that in each case other factors also
‘caused’ the buyer’s default, but that is of no moment,
for as long as Spicer’s misrepresentations were a
material and proximate cause, they need not have been
the sole factor causing HUD’s losses.”).
Here, the United States introduced evidence that
Allied originated loans from unregistered branches;
that HUD required branch registration because of the
increased risks of noncompliance; and that loans from
these unregistered branches resulted in high default
rates. The United States further introduced evidence
that Allied underwriters issued false statements
regarding borrowers’ creditworthiness; that these false
statements increased the risk of default; and that loans
underwritten by Allied did in fact default at a high
rate. This evidence formed a sufficient basis upon
which the jury inferred that Allied’s malfeasance
proximately caused these defaults.
B. Extrapolation
In determining the number of ineligible loans and
their associated damages, the United States’ experts
engaged in statistical sampling. The United States
presented expert testimony from Dr. Katherine Ensor
(a statistician), Mr. Richard Payne (an expert

App. 33
underwriter), and Mr. Gordon Klein (a financial and
management accounting professor). Dr. Ensor drew
random stratified samples from the over-17,000 loans
that Allied submitted between 2001 and 2011. Payne
then re-underwrote the loans from these samples to
determine the number of properly underwritten loans
in the sample. Klein then extrapolated Payne’s findings
to determine the total number of falsely underwritten
loans. According to Allied, the United States should
have been required to show that Allied Corporation
proximately caused each individual default.
The use of extrapolation in trials has been widely
adopted by the Fifth Circuit as well as other circuits in
cases involving a large amount of data. See, e.g., In re
Chevron U.S.A., Inc., 109 F.3d 1016, 1020 (5th Cir.
1997) (“The applicability of inferential statistics have
long been recognized by the courts.”); United States v.
Lahey Clinic Hospital, Inc., 399 F.3d 1, 18 n.19 (1st
Cir. 2005) (“[S]ampling of similar claims and
extrapolation from the sample is a recognized method
of proof.”); Ratansen v. Cal. Dept. of Health Servs., 11
F.3d 1467, 1471 (9th Cir. 1993); Chaves County Home
Health Serv. Inc. v. Sullivan, 931 F.2d 914, 919 (D.C.
Cir. 1991). The jury heard exhaustive testimony from
the United States’ experts discussing the methodology
of extrapolation. The jury ultimately decided that
Allied Corporation’s false underwriting FCA violations
caused 1,192 claims to be submitted. Dkt. 435, p. 6. The
jury further found that “the total dollar amount of
damages that the FHA sustained as a result of Allied
Corporation’s violation(s) of the False Claims Act” was
$85,612,643.00. Id. at 7. The Court finds that the

App. 34
experts’ testimony provided a substantial basis for
jury’s verdict.
C. Eligibility Rates
The United States’ experts testified that the default
rate was 53.7% of claim loans and 48.9% of non-claim
loans. Allied argues that—given the margin of error—
these rates are statistically identical, and there is
therefore no evidence to show a causal connection
between its underwriting defects and the default rate.
Allied provides no testimony of its own to buttress this
argument. In contrast, Dr. Ensor refuted Allied’s
methodology under cross-examination. According to Dr.
Ensor, Allied’s “thinking of the margin of errors in that
fashion is incorrect.” Dkt. 472, p. 132. She elaborated
that she “won’t buy into that correctness because that’s
not a statistically valid way to look—to think about this
information.” Id. This unrefuted testimony provided a
sufficient basis for the jury to find that Allied’s false
underwriting caused loans to default.
D. Known Variables
Allied argues here and in its other post-trial
motions that the United States failed to account for
other variables—namely the global financial crisis that
began in 2007—other than recklessness that may have
led to the default claims. It is undoubtedly true that
the crisis could have led to an increased number of
defaults. However, the United States did not have the
burden to address every possible alternative cause of
the default claims. See Paroline, 134 S.Ct., at 1719-20;
Spicer, 57 F.3d at 1159.

App. 35
In any event, the evidence provided the jury with a
sufficient basis with which to consider the effects of the
financial crisis. For example, Dr. Ensor’s samples were
stratified into two-year periods based on the year in
which the loan closed. Further, Allied’s counsel
discussed the financial crisis as well as HUD’s downpayment assistance program—another known variable,
according to Allied—with Dr. Ensor during her crossexamination. The jury was thus able to consider these
potential alternative causes before reaching its verdict.
III. Whether the United States Proved its
FIRREA Claims
Allied argues that the annual certifications were not
material; that there is no factual basis for finding
FIRREA liability against Allied Capital or Hodge; and
that Allied’s quality control statements “were limited
to a short period in early 2009, quickly corrected, and
have no connection with Allied Capital or Jim Hodge.”
Dkt. 509, p. 29.
A. Materiality
Allied notes the testimony of Joy Hadley, HUD’s
Director of Lender Activities and Program Compliance,
who was asked whether the certifications ever “s[aw]
the light of day[.]” Dkt. 473, p. 161. Hadley replied,
“Absent some real reason, I mean once they were
signed and, you know, received, signed and the—and
the lender recertified, I can’t imagine why they would
need to ever see the light of day.” Id. According to
Allied, this testimony proves that HUD did not rely
upon the certifications, and therefore they were not
material.

App. 36
The government introduced contradictory evidence
from former Quality Assurance Division Director Julie
Shaffer. Shaffer testified that HUD required annual
certifications to ensure that branches were in
compliance. Dkt. 499, p. 50. She testified about the
difference between minor violations—which did not
require HUD reporting—and more serious violations—
which did. She confirmed that the allegations against
Allied constituted these more serious types of
violations, which required self-reporting to HUD. Dkt.
499, pp. 166-67. While the parties produced
contradictory evidence on FIRREA materiality for the
jury to consider, the Court finds that the United States
provided a sufficient evidentiary basis for the jury to
find that Allied’s FIRREA violations were material.
B. Factual Basis
The jury unanimously found Allied Capital, Allied
Corporation, and Jim Hodge violated the FIRREA
concerning both false annual certifications and quality
control documents. The Allied Defendants argue that
there was no evidentiary basis to find either Allied
Capital or Hodge liable under either theory. As to the
false annual certifications, the United States
introduced nine separate annual certifications as
evidence (GX 72; 537-40; 543; 548-49; 604). Dkt. 468,
p. 24. The United States attributed four of the annual
certifications jointly to Allied Capital and Hodge, and
the remaining five jointly to Allied Corporation and
Hodge. Dkt. 468, p. 20.
In addition to the annual certifications, the United
States introduced testimony from Jeanne HammondStell, who had worked for various Allied entities since

App. 37
1998 and rose to the position of Executive Vice
President and Director of Compliance. She testified
that the Allied Defendants were aware of their noncompliance with HUD requirements prior to signing
the annual certifications. She personally signed and
submitted four of the nine annual certifications. She
signed half of these certifications while working with
Allied Capital, and the other half with Allied
Corporation. Her testimony demonstrates the degree of
control Hodge wielded in causing the submission of
false annual HUD certifications:
Q Who told you to sign those certifications?
A Well, it was part of my job duties to ensure
that these were submitted to HUD.
Q And who informed you that this was part of
your job duties?
A Jim Hodge
Q Did Mr. Hodge tell you why it was your
responsibility to sign these certifications to
HUD?
A Well, he wanted to make sure that they were
submitted to HUD so that the company could
remain open.
Q Was Allied in compliance with HUD’s quality
control rules when you signed each of these
certifications?
A No.
Q Were these certifications true and correct
when you signed them?
A No.
Q Did—to your knowledge, did Mr. Hodge know
that these certifications were not true when you
signed these and submitted them to HUD?

App. 38
A He knew that the company did not follow the
—the required rules.
Q For quality control?
A Yes.
Q So why did you sign these?
....
A I should have had the backbone not to do it,
but I—I didn’t. I knew that if I refused, I would
lose my job, and I needed my job.
Dkt. 457, pp. 240-43. In addition, there is ancillary
evidence of chronic noncompliance by the Defendants.
Such obvious noncompliance—in the form of false
reports and uncompleted audits and reverifications—
further renders the annual certifications as false.
Further, Allied concedes that Hodge personally signed
one annual certification. Dkt. 492, p. 15.3 The Court
therefore finds that the United States provided a
sufficient evidentiary basis for the jury to find that all
three Allied Defendants violated the FIRREA with
respect to false annual certifications.
As to the false quality control documents, the
United States introduced a 2009 email from compliance
specialist and assistant vice president Cynthia Ann
Coolger to HUD employee Odell Freeman in 2009.
Attached to the email was Allied’s January 2009
Management Summary. The Summary contained
eighteen false TENA reports—the basis for the false
quality control document violations. Coogler sent the
email to Freeman as an Allied Capital employee. Dkt.

3

Hodge signed the fiscal year 2008 annual certification (GX 604)
for Allied Capital. Id.

App. 39
510-38. The United States examined Allied employee
Renita Mathis on the stand. Mathis recounted a
telephone conversation in which Hodge told her to skip
the required reverification step. Dkt. 453, p. 217.
As a whole, the evidence provides a sufficient basis
for the jury to find that both Allied Capital and Hodge
violated FIRREA as to false quality control documents.
In summary, the United States provided a substantial
basis for the jury’s verdict against all three Allied
Defendants for FIRREA violations involving both false
annual certifications and false quality control
documents.
CONCLUSION
The Allied Defendants’ original motion for judgment
as a matter of law (Dkt. 390) was superseded by the
instant post-trial motion. Accordingly, the original
motion for judgement is hereby DENIED as moot.
Further, the Allied Defendants have failed to meet
their burden to show that the United States failed to
provide a sufficient evidentiary basis for any of the
jury’s findings. Accordingly, Allied’s renewed motion for
judgment as a matter of law (Dkt. 508) is hereby
DENIED.
SIGNED at Galveston, Texas, this 14th day of
September, 2017.
/s/ George G. Hanks, Jr.
George G. Hanks, Jr.
United States District Judge

App. 40

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:12-CV-2676
[Filed September 14, 2017]
_________________________________
UNITED STATES OF AMERICA, )
)
VS.
)
)
AMERICUS MORTGAGE
)
CORPORATION, et al,
)
Defendant.
)
________________________________ )
MEMORANDUM OPINION AND ORDER
Before the Court is Allied’s Motion for New Trial.
Dkt. 505. “The court may, on motion, grant a new trial
on all or some of the issues—and to any party ... after
a jury trial, for any reason for which a new trial has
heretofore been granted in an action at law in federal
court.” FED. R. CIV. P. 59(a)(1)(A). “A new trial may be
granted, for example, if the district court finds the
verdict is against the weight of the evidence, the
damages awarded are excessive, the trial was unfair, or
prejudicial error was committed in its course.” Smith v.
Transworld Drilling Co., 773 F.2d 610, 613 (5th Cir.
1985) (footnotes omitted). See also Beckham v. La. Dock

App. 41
Co., L.L.C., 124 Fed. App’x. 268, 270 (5th Cir. 2005);
Vackar v. Sentry Supply Inc., No. CIV.A. H-12-3716,
2015 WL 338616, at *2 (S.D. Tex. Jan. 26, 2015).
A Rule 59 motion is not granted “unless it is
reasonably clear that prejudicial error has crept into
the record or that substantial justice has not been
done, and the burden of showing harmful error rests on
the party seeking the new trial.” Sibley v. Lemaire, 184
F.3d 481, 487 (5th Cir. 1999) (quotation marks
omitted). “Unless justice requires otherwise, no error in
admitting or excluding evidence—or any other error by
the court or a party—is ground for granting a new
trial .... At every stage of the proceeding, the court
must disregard all errors and defects that do not affect
any party’s substantial rights.” FED. R. CIV. P. 61. In
determining whether to grant a motion for new trial,
the court must view the evidence “in a light most
favorable to the jury’s verdict.” Dawson v. Wal-Mart
Stores, Inc., 978 F.2d 205, 208 (5th Cir. 1992).
Significant deference is owed to the jury’s verdict; “a
new trial should not be granted unless the verdict is
against the great weight of the evidence, not merely the
preponderance of the evidence.” Dresser-Rand Co. v.
Virtual Automation, Inc., 361 F.3d 831, 838-39 (5th Cir.
2004) (internal citation omitted); see also Pryor v.
Trane Co., 138 F.3d 1024, 1026 (5th Cir. 1998)
(explaining that courts affirm the verdict unless the
evidence “points so strongly and overwhelmingly in
favor of one party that the court believes that
reasonable men could not arrive at a contrary
conclusion.” (internal citations and quotation marks
omitted)).

App. 42
The Court finds that Allied has not shown that the
trial was unfair or that prejudicial error crept into the
proceedings. Further, the Court finds that the great
weight of the evidence favors the verdict. Accordingly,
Allied’s motion for a new trial is DENIED. To the
extent that, as a part of this pending motion, Allied
argues that the Court failed to adequately explain its
denial of Allied’s Daubert motion regarding expert
witness Richard Payne, the Court restates its analysis
and ruling below.
In denying the Daubert motion, the Court found
that Payne’s expert testimony was both relevant and
reliable and that he was abundantly qualified to testify
to whether certain mortgage loans were eligible for
FHA insurance. See Dkt. 297-2. The Court also found
that his testimony would help the jury to understand
the evidence in a large-scale mortgage fraud case. The
Court found that the methodology utilized by
Payne—which included his reliance on data produced
from statistical sampling and the subsequent
extrapolation of his findings—rested on a reliable
foundation. This methodology has been widely adopted
by the Fifth Circuit as well as other circuits in cases
involving a large amount of data. See, e.g., In re
Chevron U.S.A., Inc., 109 F.3d 1016, 1020 (5th Cir.
1997) (“The applicability of inferential statistics have
long been recognized by the courts.”); United States v.
Lahey Clinic Hospital, Inc., 399 F.3d 1, 18 n.19 (1st
Cir. 2005) (“[S]ampling of similar claims and
extrapolation from the sample is a recognized method
of proof.”); Ratansen v. Cal. Dept. of Health Servs., 11
F.3d 1467, 1471 (9th Cir. 1993).

App. 43
SIGNED at Galveston, Texas, this 14th day of
September, 2017.
/s/ George G. Hanks, Jr.
George G. Hanks, Jr.
United States District Judge

App. 44

APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
12 Civ. 02676 (GCH)
[Filed September 29, 2017]
________________________________________________
UNITED STATES OF AMERICA,
)
Plaintiff-Intervenor,
)
)
v.
)
)
ALLQUEST HOME MORTGAGE
)
CORPORATION, f/k/a/ ALLIED HOME
)
MORTGAGE CORPORATION, AMERICUS
)
MORTGAGE CORPORATION, f/k/a/ ALLIED
)
HOME MORTGAGE CAPITAL CORPORATION, )
JIM C. HODGE, and JEANNE L. STELL,
)
Defendants.
)
_______________________________________________ )
FINAL JUDGMENT
Whereas in a trial before this Court, the jury having
found defendants Allquest Home Mortgage
Corporation, formerly known as Allied Home Mortgage
Corporation (“Allied Corporation”), Americus Mortgage
Corporation, formerly known as Allied Home Mortgage
Capital Corporation (“Allied Capital”), and Jim C.
Hodge (“Hodge”), liable under the False Claims Act, as
amended, 31 U.S.C. § 3729 et seq., and the Financial

App. 45
Institutions Reform, Recovery, and Enforcement Act of
1989, 12 U.S.C. § 1833a; this Court now having to
determine what treble damages and civil penalties
should be imposed on defendants for violations of those
statutes; and the Court on September 14, 2017, having
rendered its Opinion and Order directing the Clerk of
the Court to enter Final Judgment against Allied
Corporation, Allied Capital, and Hodge as specified
below, it is:
ORDERED, ADJUDGED AND DECREED that for
the reasons stated in the Court’s Opinion and Order
dated September 14, 2017, that the United States of
America is awarded a judgment in the sum of:
(a) $268,037,929 as against Allquest Home
Mortgage Corporation, formerly known as Allied
Corporation;
(b) $25,340,396 as against Americus Mortgage
Corporation, formerly known as Allied Capital, of
which $23,140,396 is owed jointly and severally with
Hodge;
(c) $25,340,396 as against Hodge, of which
$23,140,396 is owed jointly and severally with
Americus Mortgage Corporation, formerly known as
Allied Capital.
Dated:

Galveston, Texas
September 29 2017
/s/ George G. Hanks, Jr.
Hon. George G. Hanks, Jr.
United States District Judge

App. 46

APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-20720
[Filed November 12, 2019]
__________________________________________
UNITED STATES OF AMERICA,
)
Plaintiff - Appellee
)
)
v.
)
)
JIM C. HODGE; ALLQUEST HOME
)
MORTGAGE CORPORATION, formerly
)
known as Allied Home Mortgage
)
Corporation; AMERICUS MORTGAGE
)
CORPORATION, formerly known as Allied )
Home Mortgage Capital Corporation,
)
Defendants - Appellants
)
_________________________________________ )
Appeal from the United States District Court
for the Southern District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion August 8, 2019, 5 Cir., ____, ____ F.3d ____ )
Before BARKSDALE, SOUTHWICK, and HAYNES,
Circuit Judges.

App. 47
PER CURIAM:
(T)

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled
on Rehearing En Banc (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.

( )

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.
ENTERED FOR THE COURT
/s/
UNITED STATES CIRCUIT JUDGE

App. 48

APPENDIX F
31 U.S.C. § 3729
(a) Liability for Certain Acts.—
(1) In general.—Subject to paragraph (2), any
person who—
(A) knowingly presents, or causes to be
presented, a false or fraudulent claim for
payment or approval;
(B) knowingly makes, uses, or causes to be made
or used, a false record or statement material to
a false or fraudulent claim;
(C) conspires to commit a violation
subparagraph (A), (B), (D), (E), (F), or (G);

of

(D) has possession, custody, or control of
property or money used, or to be used, by the
Government and knowingly delivers, or causes
to be delivered, less than all of that money or
property;
(E) is authorized to make or deliver a document
certifying receipt of property used, or to be used,
by the Government and, intending to defraud
the Government, makes or delivers the receipt
without completely knowing that the
information on the receipt is true;
(F) knowingly buys, or receives as a pledge of an
obligation or debt, public property from an

App. 49
officer or employee of the Government, or a
member of the Armed Forces, who lawfully may
not sell or pledge property; or
(G) knowingly makes, uses, or causes to be made
or used, a false record or statement material to
an obligation to pay or transmit money or
property to the Government, or knowingly
conceals or knowingly and improperly avoids or
decreases an obligation to pay or transmit
money or property to the Government,
is liable to the United States Government for a
civil penalty of not less than $5,000 and not
more than $10,000, as adjusted by the Federal
Civil Penalties Inflation Adjustment Act of 1990
(28 U.S.C. 2461 note; Public Law 104–410), plus
3 times the amount of damages which the
Government sustains because of the act of that
person.
(2) Reduced damages.—If the court finds that—
(A) the person committing the violation of this
subsection furnished officials of the United
States responsible for investigating false claims
violations with all information known to such
person about the violation within 30 days after
the date on which the defendant first obtained
the information;
(B) such person fully cooperated with any
Government investigation of such violation; and
(C) at the time such person furnished the United
States with the information about the violation,

App. 50
no criminal prosecution, civil action, or
administrative action had commenced under this
title with respect to such violation, and the
person did not have actual knowledge of the
existence of an investigation into such violation,
the court may assess not less than 2 times the
amount of damages which the Government
sustains because of the act of that person.
(3) Costs of civil actions.—
A person violating this subsection shall also be
liable to the United States Government for the costs
of a civil action brought to recover any such penalty
or damages.
(b) Definitions.—For purposes of this section—
(1) the terms “knowing” and “knowingly”—
(A) mean that a person, with respect to
information—
(i) has actual knowledge of the information;
(ii) acts in deliberate ignorance of the truth
or falsity of the information; or
(iii) acts in reckless disregard of the truth or
falsity of the information; and
(B) require no proof of specific intent to defraud;
(2) the term “claim”—
(A) means any request or demand, whether
under a contract or otherwise, for money or

App. 51
property and whether or not the United States
has title to the money or property, that—
(i) is presented to an officer, employee, or
agent of the United States; or
(ii) is made to a contractor, grantee, or other
recipient, if the money or property is to be
spent or used on the Government’s behalf or
to advance a Government program or
interest, and if the United States
Government—
(I) provides or has provided any portion of
the money or property requested or
demanded; or
(II) will reimburse such contractor,
grantee, or other recipient for any portion
of the money or property which is
requested or demanded; and
(B) does not include requests or demands for
money or property that the Government has
paid to an individual as compensation for
Federal employment or as an income subsidy
with no restrictions on that individual’s use of
the money or property;
(3) the term “obligation” means an established duty,
whether or not fixed, arising from an express or
implied contractual, grantor-grantee, or
licensor-licensee relationship, from a fee-based or
similar relationship, from statute or regulation, or
from the retention of any overpayment; and

App. 52
(4) the term “material” means having a natural
tendency to influence, or be capable of influencing,
the payment or receipt of money or property.
(c) Exemption From Disclosure.—
Any information furnished pursuant to subsection
(a)(2) shall be exempt from disclosure under section
552 of title 5.
(d) Exclusion.—
This section does not apply to claims, records, or
statements made under the Internal Revenue Code of
1986.

App. 53
31 U.S.C. § 3730
(a) Responsibilities of the Attorney General.—
The Attorney General diligently shall investigate a
violation under section 3729. If the Attorney General
finds that a person has violated or is violating section
3729, the Attorney General may bring a civil action
under this section against the person.
(b) Actions by Private Persons.—
(1) A person may bring a civil action for a violation
of section 3729 for the person and for the United
States Government. The action shall be brought in
the name of the Government. The action may be
dismissed only if the court and the Attorney
General give written consent to the dismissal and
their reasons for consenting.
(2) A copy of the complaint and written disclosure of
substantially all material evidence and information
the person possesses shall be served on the
Government pursuant to Rule 4(d)(4) of the Federal
Rules of Civil Procedure. The complaint shall be
filed in camera, shall remain under seal for at least
60 days, and shall not be served on the defendant
until the court so orders. The Government may elect
to intervene and proceed with the action within 60
days after it receives both the complaint and the
material evidence and information.
(3) The Government may, for good cause shown,
move the court for extensions of the time during
which the complaint remains under seal under
paragraph (2). Any such motions may be supported

App. 54
by affidavits or other submissions in camera. The
defendant shall not be required to respond to any
complaint filed under this section until 20 days
after the complaint is unsealed and served upon the
defendant pursuant to Rule 4 of the Federal Rules
of Civil Procedure.
(4) Before the expiration of the 60-day period or any
extensions obtained under paragraph (3), the
Government shall—
(A) proceed with the action, in which case the
action shall be conducted by the Government; or
(B) notify the court that it declines to take over
the action, in which case the person bringing the
action shall have the right to conduct the action.
(5) When a person brings an action under this
subsection, no person other than the Government
may intervene or bring a related action based on the
facts underlying the pending action.
(c) Rights of the Parties to Qui Tam Actions.—
(1) If the Government proceeds with the action, it
shall have the primary responsibility for
prosecuting the action, and shall not be bound by an
act of the person bringing the action. Such person
shall have the right to continue as a party to the
action, subject to the limitations set forth in
paragraph (2).
(2)
(A) The Government may dismiss the action
notwithstanding the objections of the person

App. 55
initiating the action if the person has been
notified by the Government of the filing of the
motion and the court has provided the person
with an opportunity for a hearing on the motion.
(B) The Government may settle the action with
the defendant notwithstanding the objections of
the person initiating the action if the court
determines, after a hearing, that the proposed
settlement is fair, adequate, and reasonable
under all the circumstances. Upon a showing of
good cause, such hearing may be held in camera.
(C) Upon a showing by the Government that
unrestricted participation during the course of
the litigation by the person initiating the action
would interfere with or unduly delay the
Government’s prosecution of the case, or would
be repetitious, irrelevant, or for purposes of
harassment, the court may, in its discretion,
impose limitations on the person’s participation,
such as—
(i) limiting the number of witnesses the
person may call;
(ii) limiting the length of the testimony of
such witnesses;
(iii) limiting the person’s cross-examination
of witnesses; or
(iv) otherwise limiting the participation by
the person in the litigation.

App. 56
(D) Upon a showing by the defendant that
unrestricted participation during the course of
the litigation by the person initiating the action
would be for purposes of harassment or would
cause the defendant undue burden or
unnecessary expense, the court may limit the
participation by the person in the litigation.
(3) If the Government elects not to proceed with the
action, the person who initiated the action shall
have the right to conduct the action. If the
Government so requests, it shall be served with
copies of all pleadings filed in the action and shall
be supplied with copies of all deposition transcripts
(at the Government’s expense). When a person
proceeds with the action, the court, without limiting
the status and rights of the person initiating the
action, may nevertheless permit the Government to
intervene at a later date upon a showing of good
cause.
(4) Whether or not the Government proceeds with
the action, upon a showing by the Government that
certain actions of discovery by the person initiating
the action would interfere with the Government’s
investigation or prosecution of a criminal or civil
matter arising out of the same facts, the court may
stay such discovery for a period of not more than 60
days. Such a showing shall be conducted in camera.
The court may extend the 60-day period upon a
further showing in camera that the Government
has pursued the criminal or civil investigation or
proceedings with reasonable diligence and any
proposed discovery in the civil action will interfere

App. 57
with the ongoing criminal or civil investigation or
proceedings.
(5) Notwithstanding subsection (b), the Government
may elect to pursue its claim through any alternate
remedy available to the Government, including any
administrative proceeding to determine a civil
money penalty. If any such alternate remedy is
pursued in another proceeding, the person initiating
the action shall have the same rights in such
proceeding as such person would have had if the
action had continued under this section. Any
finding of fact or conclusion of law made in such
other proceeding that has become final shall be
conclusive on all parties to an action under this
section. For purposes of the preceding sentence, a
finding or conclusion is final if it has been finally
determined on appeal to the appropriate court of
the United States, if all time for filing such an
appeal with respect to the finding or conclusion has
expired, or if the finding or conclusion is not subject
to judicial review.
(d) Award to Qui Tam Plaintiff.—
(1) If the Government proceeds with an action
brought by a person under subsection (b), such
person shall, subject to the second sentence of this
paragraph, receive at least 15 percent but not more
than 25 percent of the proceeds of the action or
settlement of the claim, depending upon the extent
to which the person substantially contributed to the
prosecution of the action. Where the action is one
which the court finds to be based primarily on
disclosures of specific information (other than

App. 58
information provided by the person bringing the
action) relating to allegations or transactions in a
criminal, civil, or administrative hearing, in a
congressional, administrative, or Government
Accounting Office report, hearing, audit, or
investigation, or from the news media, the court
may award such sums as it considers appropriate,
but in no case more than 10 percent of the proceeds,
taking into account the significance of the
information and the role of the person bringing the
action in advancing the case to litigation. Any
payment to a person under the first or second
sentence of this paragraph shall be made from the
proceeds. Any such person shall also receive an
amount for reasonable expenses which the court
finds to have been necessarily incurred, plus
reasonable attorneys’ fees and costs. All such
expenses, fees, and costs shall be awarded against
the defendant.
(2) If the Government does not proceed with an
action under this section, the person bringing the
action or settling the claim shall receive an amount
which the court decides is reasonable for collecting
the civil penalty and damages. The amount shall be
not less than 25 percent and not more than 30
percent of the proceeds of the action or settlement
and shall be paid out of such proceeds. Such person
shall also receive an amount for reasonable
expenses which the court finds to have been
necessarily incurred, plus reasonable attorneys’ fees
and costs. All such expenses, fees, and costs shall be
awarded against the defendant.

App. 59
(3) Whether or not the Government proceeds with
the action, if the court finds that the action was
brought by a person who planned and initiated the
violation of section 3729 upon which the action was
brought, then the court may, to the extent the court
considers appropriate, reduce the share of the
proceeds of the action which the person would
otherwise receive under paragraph (1) or (2) of this
subsection, taking into account the role of that
person in advancing the case to litigation and any
relevant circumstances pertaining to the violation.
If the person bringing the action is convicted of
criminal conduct arising from his or her role in the
violation of section 3729, that person shall be
dismissed from the civil action and shall not receive
any share of the proceeds of the action. Such
dismissal shall not prejudice the right of the United
States to continue the action, represented by the
Department of Justice.
(4) If the Government does not proceed with the
action and the person bringing the action conducts
the action, the court may award to the defendant its
reasonable attorneys’ fees and expenses if the
defendant prevails in the action and the court finds
that the claim of the person bringing the action was
clearly frivolous, clearly vexatious, or brought
primarily for purposes of harassment.
(e) Certain Actions Barred.—
(1) No court shall have jurisdiction over an action
brought by a former or present member of the
armed forces under subsection (b) of this section

App. 60
against a member of the armed forces arising out of
such person’s service in the armed forces.
(2)
(A) No court shall have jurisdiction over an
action brought under subsection (b) against a
Member of Congress, a member of the judiciary,
or a senior executive branch official if the action
is based on evidence or information known to the
Government when the action was brought.
(B) For purposes of this paragraph, “senior
executive branch official” means any officer or
employee listed in paragraphs (1) through (8) of
section 101(f) of the Ethics in Government Act of
1978 (5 U.S.C. App.).
(3) In no event may a person bring an action under
subsection (b) which is based upon allegations or
transactions which are the subject of a civil suit or
an administrative civil money penalty proceeding in
which the Government is already a party.
(4)
(A) The court shall dismiss an action or claim
under this section, unless opposed by the
Government, if substantially the same
allegations or transactions as alleged in the
action or claim were publicly disclosed—
(i) in a Federal criminal, civil, or
administrative hearing in which the
Government or its agent is a party;

App. 61
(ii) in a congressional, Government
Accountability Office, or other Federal
report, hearing, audit, or investigation; or
(iii) from the news media,
unless the action is brought by the Attorney
General or the person bringing the action is
an original source of the information.
(B) For purposes of this paragraph, “original
source” means an individual who either (i) prior
to a public disclosure under subsection (e)(4)(a),
has voluntarily disclosed to the Government the
information on which allegations or transactions
in a claim are based, or (2) who has knowledge
that is independent of and materially adds to the
publicly disclosed allegations or transactions,
and who has voluntarily provided the
information to the Government before filing an
action under this section.
(f) Government Not Liable for Certain Expenses.—
The Government is not liable for expenses which a
person incurs in bringing an action under this section.
(g) Fees and Expenses to Prevailing Defendant.—
In civil actions brought under this section by the
United States, the provisions of section 2412(d) of title
28 shall apply.
(h) Relief From Retaliatory Actions.—
(1) In general.—

App. 62
Any employee, contractor, or agent shall be entitled
to all relief necessary to make that employee,
contractor, or agent whole, if that employee,
contractor, or agent is discharged, demoted,
suspended, threatened, harassed, or in any other
manner discriminated against in the terms and
conditions of employment because of lawful acts
done by the employee, contractor, agent or
associated others in furtherance of an action under
this section or other efforts to stop 1 or more
violations of this subchapter.
(2) Relief.—
Relief under paragraph (1) shall include
reinstatement with the same seniority status that
employee, contractor, or agent would have had but
for the discrimination, 2 times the amount of back
pay, interest on the back pay, and compensation for
any special damages sustained as a result of the
discrimination, including litigation costs and
reasonable attorneys’ fees. An action under this
subsection may be brought in the appropriate
district court of the United States for the relief
provided in this subsection.
(3) Limitation on bringing civil action.—
A civil action under this subsection may not be
brought more than 3 years after the date when the
retaliation occurred.

App. 63

APPENDIX G
Early Payment Default Individual Case
Summaries
[Fold-Out Exhibit, see next 8 pages]

17-20720.25424

17-20720.25425

17-20720.25426

17-20720.25427

17-20720.25428

17-20720.25429

17-20720.25430

17-20720.25431

App. 64

APPENDIX H
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:12-CV-2676
[Filed November 29, 2016]
_________________________________
UNITED STATES OF AMERICA, )
Plaintiff
)
)
VS.
)
)
AMERICUS MORTGAGE
)
CORPORATION, et al.,
)
Defendants.
)
________________________________ )
SPECIAL JURY VERDICT FORM
We, the Jury, first being first duly empaneled and
then sworn in the above-entitled cause, find as follows:
FALSE CLAIMS ACT
UNREGISTERED BRANCHES :
31 U.S.C. § 3729(a)(1)(B)
Question 1
Do you find, by a preponderance of the evidence,
that Allied Capital and/or Jim Hodge violated the False
Claims Act by knowingly representing to HUD that

App. 65
certain FHA-insured loans were originated from HUDapproved Allied Capital branches, and were therefore
eligible for FHA insurance, when in fact they were not?
Under the False Claims Act, any person, including
a corporation, who knowingly makes, uses, or causes to
be made or used a false record or statement material to
a false or fraudulent claim is liable to the United
States.
Answer “Yes” or “No” for each of the
following:
Allied Capital Yes
Jim Hodge

Yes

If you answered “Yes” to any line in Question 1, go to
Question 2. If you did not answer “Yes” for at least one
line in Question 1, go to Question 5.
Question 2
For each Defendant you marked “Yes” in
Question 1, specify how many claims that you find were
submitted as a result of that Defendant’s violation(s) of
the False Claims Act in connection with knowingly
representing to HUD that certain FHA-insured loans
were originated from HUD-approved Allied Capital
branches, and were therefore eligible for FHA
insurance, when in fact they were not:
Allied Capital 103
Jim Hodge

103

App. 66
If you answered “Yes” for Allied Capital in
Question 1, go to Question 3. If you did not answer “Yes”
for Allied Capital in Question 1, go to Question 4.
Question 3
What is the total dollar amount of damages that the
FHA sustained as a result of Allied Capital’s
violation(s) of the False Claims Act that you found in
Questions 1 and 2?
$ 7,370,132.00
If you answered “Yes” for Jim Hodge in Question 1,
go to Question 4. If you did not answer “Yes” for Jim
Hodge in Question 1, go to Question 5.
Question 4
What is the total dollar amount of damages that the
FHA sustained as a result of Jim Hodge’s violation(s)
of the False Claims Act that you found in Questions 1
and 2?
$ 7,370,132.00
Go to Question 5.
FALSE CLAIMS ACT
UNDERWRITING :
31 U.S.C. § 3729(a)(1)(B)
Question 5
Do you find, by a preponderance of the evidence,
that Allied Corporation violated the False Claims Act
by knowingly representing to HUD that certain FHAinsured loans had been underwritten with due

App. 67
diligence and were eligible for FHA insurance when, in
fact, they were not?
Under the False Claims Act, any person, including
a corporation, who knowingly makes, uses, or causes to
be made or used a false record or statement material to
a false or fraudulent claim is liable to the United
States.
Answer “Yes” or “No” for each of the
following:
Allied Corporation Yes
If you answered “Yes” to Question 5, go to
Question 6. If you did not answer “Yes” to Question 5, go
to Question 8.
Question 6
Specify how many claims that you find were
submitted as a result of Allied Corporation’s
violation(s) of the False Claims Act in connection with
knowingly representing to HUD that certain FHAinsured loans had been underwritten with due
diligence and were eligible for FHA insurance when, in
fact, they were not:
Allied Corporation 1,192
If you answered “Yes” to Question 5, go to
Question 7. If you did not answer “Yes” to Question 5, go
to Question 8.
Question 7
What is the total dollar amount of damages that the
FHA sustained as a result of Allied Corporation’s

App. 68
violation(s) of the False Claims Act that you found in
Questions 5 and 6?
$ 85,612,643.00
FALSE CLAIMS ACT
UNDERWRITING :
31 U.S.C. § 3729(a)(1)(A)
Question 8
Do you find, by a preponderance of the evidence,
that Allied Corporation violated the False Claims Act
by knowingly representing to HUD that certain FHAinsured loans had been underwritten with due
diligence and were eligible for FHA insurance when, in
fact, they were not?
Under the False Claims Act, any person, including
a corporation, who knowingly presents, or causes to
be presented, a false or fraudulent claim for
payment is liable to the United States.
Answer “Yes” or “No” for each of the
following:
Allied Corporation Yes
If you answered “Yes” to Question 8, go to
Question 9. If you did not answer “Yes” to Question 8, go
to Question 11.
Question 9
Specify how many claims that you find were
submitted as a result of Allied Corporation’s
violation(s) of the False Claims Act in connection with

App. 69
knowingly representing to HUD that certain FHAinsured loans had been underwritten with due
diligence and were eligible for FHA insurance when, in
fact, they were not:
Allied Corporation 1,192
If you answered “Yes” to Question 8, go to
Question 10. If you did not answer “Yes” to Question 8,
go to Question 11.
Question 10
What is the total dollar amount of damages that the
FHA sustained as a result of Allied Corporation’s
violation(s) of the False Claims Act that you found in
Questions 8 and 9?
$ 85,612,643.00

App. 70

APPENDIX I
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:12-CV-2676
[Dated November 3, 2016]
_________________________________
UNITED STATES OF AMERICA, )
)
VS.
)
)
AMERICUS MORTGAGE
)
CORPORATION, et al.,
)
Defendants.
)
________________________________ )
[Excerpts of Transcript (Payne Testimony)
re: Jury Trial Vol. 8 held on 11/3/16 before
Judge George C Hanks, Jr.]
***
[p.240]
Mr. Mills Cross of Richard Payne
53 percent, it would be two-and-a-half percent, and
then you would be outside the margin of error.
So I -- I -- again, I’m not a statistician.

App. 71
Q Let me -- I’m not asking -- I’m asking you to do third
grade math here.
You would agree with me 53.7 and 48.9 percent are
pretty close.
MR. CORDARO: Objection, Your Honor. And he’s
characterizing -- the witness has done the math, and so
we know exactly how far apart they are. Anything more
than that, we’re into statistical analysis again.
THE COURT: I’m agreeing. We need to move on.
BY MR. MILLS:
Q Okay. The -- there’s -- well, from this, do you see any
correlation between the ineligible -- ineligibility rate of
non-claim loans and claim loans?
MR. CORDARO: Same objection, Your Honor.
THE COURT: Objection sustained. Lack of
foundation.
BY MR. MILLS:
Q Okay. Did you make any determination about what
was causing loan defaults in loans underwritten by
Allied?
THE COURT: That’s a proper question. You can
answer it if you know.
THE WITNESS: Okay.
A No, sir, I did not. That was beyond the scope of my

App. 72
[p.241]
assignment.
BY MR. MILLS:
Q And isn’t it true that not only did you not analyze
causation, you proved that you can’t prove causation
with this analysis?
MR. CORDARO: Objection, Your Honor.
THE COURT: It’s -- that’s calling for a statistical -it’s calling -- asking him if he’s figured out correlation
and causation. Has he been - - has he been established
as an expert on causation in this case?
MR. CORDARO: I don’t believe so, Your Honor,
unless -MR. MILLS: I’ll withdraw the question, Your
Honor.
THE COURT: Okay.
BY MR. MILLS:
Q But I’m going to turn you to Allied Exhibit 746,
which is tab 5 in your notebook.
A I’m there.
Q Okay.
MR. MILLS: Kassi, if you can put it up on the
screen.
BY MR. MILLS:
Q And if you turn to page 2.

App. 73
A Page 2, you said?
Q Page 2.
Okay. This concerns a post endorsement technical
review,
***

